APPENDICES

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals for the Eleventh Circuit, EGIVSR, LLC v. Coderch Mitjans, No. 1812615 (June 25, 2020).................................... 1a
Appendix B
Omnibus Order of the United States
District Court for the Southern District of
Florida Confirming Arbitration Award,
EGI-VSR, LLC v. Coderch Mitjans, No.
15-20098 (May 31, 2018) ............................... 24a
Appendix C
Final Judgment of the United States
District Court for the Southern District of
Florida Confirming Arbitration Award,
EGI-VSR, LLC v. Coderch Mitjans, No.
15-20098 (June 4, 2018)................................. 37a

1a
Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12615
D.C. Docket No. 1:15-cv-20098-RNS
EGI-VSR, LLC,
Petitioner – Appellee,
versus
JUAN CARLOS CELESTINO CODERCH MITJANS,
Respondent – Appellant.
_________________________________________________
Appeal from the United States District Court for the
Southern District of Florida
_________________________________________________
(June 25, 2020)
Before ROSENBAUM and TJOFLAT, Circuit Judges,
*

and PAULEY, District Judge.

*

Honorable William H. Pauley, III, Senior United States District
Judge, Southern District of New York, sitting by designation.

2a
TJOFLAT, Circuit Judge:
Juan Carlos Celestino Coderch Mitjans (“Mr.
Coderch”) appeals the District Court’s order
confirming a $28 million international arbitration
award in favor of EGI-VSR, LLC (“EGI”). In 2012, a
Chilean arbitrator resolved a dispute between EGI
and Mr. Coderch arising out of a Shareholders’
Agreement that was designed to protect EGI’s
investment in a Chilean wine company. Specifically,
the arbitrator enforced a provision of the
Shareholders’ Agreement which gave EGI the right to
sell its shares back to the controlling shareholders,
including Mr. Coderch, at a premium if any of the
controlling shareholders breached certain promises
made to EGI in the Agreement. The arbitrator found
that the controlling shareholders breached the
Agreement and ordered Mr. Coderch and the other
controlling shareholders to pay for all of EGI’s shares
at the premium price specified in the Agreement.
EGI sought to enforce the Chilean award in the
U.S. District Court for the Southern District of Florida
by filing a petition to confirm the international
arbitration award under the Federal Arbitration Act
(“FAA”). Over Mr. Coderch’s objections, the District
Court confirmed the award as requested by EGI. Mr.
Coderch raises two errors on appeal. First, he claims
that he was not properly served in Brazil under
Brazilian law. Second, he argues that the District
Court should not have confirmed the award because
(a) it was a non-final arbitration award, and (b) EGI’s
requested relief substantially modified the award. We
agree with the District Court that service was proper,
and that this arbitration award should be confirmed.
However, we vacate the District Court’s order and
remand with instructions to correct two errors that
the Court committed in enforcing the award.

3a

I.
On October 19, 2005, EGI purchased 4.24 million
preferred shares in a Chilean wine company, Viña San
Rafael S.A.1 As part of that purchase, EGI entered
into a written Shareholders’ Agreement with the
controlling shareholders of Viña San Rafael. Relevant
here, the Shareholders’ Agreement provides in Section
10 that if the controlling shareholders breach certain
covenants in the Agreement, EGI would have a “put
right,” meaning that EGI could force the controlling
shareholders to purchase from EGI all of EGI’s shares
of preferred stock.2 Section 10 then fixes the price of
those preferred shares at “one hundred and three
percent (103%) of the per share Preferred Liquidation
Preference.” Shareholders’ Agreement defines the
“Preferred Liquidation Preference” as “a liquidation
preference in the amount of the Preferred Purchase
Price per share, plus 4% per annum thereon (based on
a 360-day year), compounded semi-annually accruing
from and after the date of the Preferred Closing.”3
“Preferred Purchase Price” is in turn defined as “the
purchase price per share paid by [EGI] for the shares
of Preferred Stock acquired by them pursuant to the

Over the next several years, EGI purchased millions of
additional shares in Viña San Rafael, ultimately acquiring over
7.54 million shares—a nearly $20 million investment.
1

EGI could “put” some or all of its shares, and retained full
discretion “to revoke its exercised Put Right with respect to all or
any part of the shares to be purchased anytime before such
shares are effectively transferred and paid for and thereafter
shall not be obligated to sell them.”
2

The “Preferred Closing” is “the date of the payment of the
shares of Preferred Stock issued to [EGI],” or the “Payment
Date.”
3

4a
Preferred Purchase Agreement.”4 To make it simpler:
the put price for EGI’s preferred shares is equal to the
original price EGI paid for those shares, plus an
additional 4% per year (compounded semi-annually
from the date that EGI purchased the shares), plus
another 3% on top of that amount.
Additionally, under Section 11, Mr. Coderch
agreed
to
“unconditionally
and
irrevocably
guarantee[] the prompt payment when due and
performance of the obligations and liabilities of”
several of the controlling shareholder entities,
including “the payment for shares of Preferred Stock
purchased in connection with the exercise of the Put
Right.” The obligations and liabilities of the
controlling shareholders under the Shareholders’
Agreement are joint and several.
The Preferred Purchase Agreement is not included in the
record on appeal, and the Shareholders’ Agreement does not
otherwise indicate the purchase price per share paid by EGI for
its shares of preferred stock. But we know what EGI paid for
these shares because the arbitrator listed the price in his
ultimate award. According to the award, EGI purchased its
initial 4.24 million shares of preferred stock at a price per share
of UF 0.0782354. (UF is the Spanish acronym for Unidad de
Fomento, an inflation-controlled unit of account used in Chile.)
4

Although the award does not walk through each of EGI’s
subsequent acquisitions of preferred stock, it does list the date
and price of each of these purchases in its final calculation of the
amount owed to EGI. Apparently, after this initial purchase of
4.24 million shares on October 19, 2005, EGI purchased an
additional 42,768 shares of preferred stock on August 2, 2006 at
a price per share of UF 0.07366925; 748,435 shares of preferred
stock on January 31, 2007 at a price per share of UF 0.060019;
620,508 shares of preferred stock on October 11, 2007 at a price
per share of UF 0.0600191; and 1,892,738 shares of preferred
stock on August 26, 2008 at a price per share of UF 0.03892127.
See infra p. 6.

5a
On October 13, 2009, EGI sought to exercise its
put right, alleging several breaches of the
Shareholders’ Agreement by the controlling
shareholders.5 When the controlling shareholders—
and Mr. Coderch, as guarantor for his companies—
refused to pay for EGI’s shares in accordance with
Section 10, it triggered the arbitration clause of the
Shareholders’ Agreement, and a years-long
arbitration ensued in Chile. Ultimately, on January
13, 2012, the Chilean arbitrator issued a 102-page
Arbitration Award, finding that the controlling
shareholders breached several sections of the
Shareholders’ Agreement, thus entitling EGI to
exercise its put right. It ordered the controlling
shareholders to purchase, within ten days, EGI’s
preferred shares at the price agreed to in Section 10 of
the Shareholders’ Agreement. It then laid out the
method for calculating the purchase price with respect
to each of EGI’s separate acquisitions of preferred
stock, tracking the language of Section 10 outlined
above:
This purchase transaction must be
carried out at the price agreed to in
Section 10 of the Shareholder’s
Agreement of Viña San Rafael S.A., that
is to say:

a) The sum of 4,240,000 shares of

preferred stock must be bought and paid
for at a price equal to 103% of the
Preferred Liquidation Price. The
Preferred Liquidation Price corresponds
to the amount of the Preferred Purchase
EGI elected to exercise its put right with respect to all of its
shares, and it has never sought to revoke that put. See supra
note 2.
5

6a
Price per share, i.e., UF 0.0782354, plus
4% a year (based on a year of 360 days),
compounded semi-annually, starting
from October 19, 2005.

b) The sum of 42,768 shares of

preferred stock must be bought and paid
for at a price equal to 103% of the
Preferred Liquidation Price. The
Preferred Liquidation Price corresponds
to the amount of the Preferred Purchase
Price per share, i.e., UF 0.07366925,
plus 4% a year (based on a year of 360
days), compounded semi-annually,
starting from August 2, 2006.

c) The sum of 748,435 shares of
preferred stock must be bought and paid
for at a price equal to 103% of the
Preferred Liquidation Price. The
Preferred Liquidation Price corresponds
to the amount of the Preferred Purchase
Price per share, i.e., UF 0.060019, plus
4% a year (based on a year of 360 days),
compounded semi-annually, starting
from January 31, 2007.

d) The quantity of 620,508 shares of

preferred stock must be bought and paid
for at a price equal to 103% of the
Preferred Liquidation Price. The
Preferred Liquidation Price corresponds
to the amount of the Preferred Purchase
Price per share, i.e., UF 0.0600191, plus
4% a year (based on a year of 360 days),
compounded semi-annually, starting
from October 11, 2007.

7a

e) The sum of 1,892,738 shares of

preferred stock must be bought and paid
for at a price equal to 103% of the
Preferred Liquidation Price. The
Preferred Liquidation Price corresponds
to the amount of the Preferred Purchase
Price per share, i.e., UF 0.03892127,
plus 4% a year (based on a year of 360
days), compounded semi-annually,
starting from August 26, 2008.
EGI filed a petition to confirm the Arbitration
Award against Mr. Coderch in the U.S. District Court
for the Southern District of Florida on January 12,
2015. In its petition, EGI performed the calculations
laid out in the Arbitration Award and asked the
District Court to direct Mr. Coderch to pay EGI
$28,700,450.07.6 The District Court issued a summons
on March 30, 2015, and on April 20, 2015, EGI filed a
notice indicating that it had filed a request to serve
process on Mr. Coderch at his last known residence in
Brazil pursuant to the Inter-American Convention on
Letters Rogatory (“Convention on Letters Rogatory”),
Jan. 30, 1975, O.A.S.T.S. No. 43, 1438 U.N.T.S. 288.
The Convention on Letters Rogatory facilitates
the transmission of letters rogatory7 among its
Although EGI included its calculations in an appendix to the
petition, it did not specify in the petition itself the final dollar
amount it believed Mr. Coderch was obligated to pay. EGI later
filed a more detailed calculation and a proposed judgment that
listed the final purchase price when it filed its response brief in
opposition to Mr. Coderch’s motions to quash and to dismiss.
6

“In its broader sense in international practice, the term letters
rogatory denotes a formal request from a court in which an action
is pending, to a foreign court to perform some judicial act.” 22
C.F.R. § 92.54.
7

8a
signatory countries, including for procedural acts such
as service of process. Under the Convention on Letters
Rogatory and the Additional Protocol to the InterAmerican
Convention
on
Letters
Rogatory
(“Additional Protocol”), May 8, 1979, O.A.S.T.S. No.
56, 1438 U.N.T.S. 372, the originating country’s
Central Authority—established to carry out the
country’s responsibilities under the Convention on
Letters Rogatory—transmits the letters rogatory to
the destination country’s Central Authority. The
Central Authority in the destination country then
executes the letters rogatory in accordance with its
own laws and procedural rules. Convention on Letters
Rogatory, art. 10; Additional Protocol, art. 4. Upon
execution, the Central Authority of the destination
country certifies that the letters rogatory were
executed in accordance with local law and returns the
executed letters rogatory to the Central Authority in
the originating country. Both the United States and
Brazil are signatories to the Convention on Letters
Rogatory and its Additional Protocol.
Because this process can take at least twelve
months to complete, EGI moved, on May 7, 2015, for
an extension of time to effectuate foreign service of
process on Mr. Coderch pursuant to the Convention on
Letters Rogatory. The District Court granted EGI’s
request and administratively closed the case until
service was carried out.
Once Brazil’s Central Authority received the
Letter Rogatory from the United States, it attempted,
unsuccessfully, to serve Mr. Coderch multiple times at
various addresses; later it dispatched a bailiff, who
apparently was unable to locate Mr. Coderch at his
last known address. During the bailiff’s latest attempt
to serve Mr. Coderch on November 1, 2016, the bailiff
was informed that Mr. Coderch was living at a finca

9a
(a farm) in Paraguay. On December 5, 2016, a
Paraguayan notary attempted to locate the finca but
could not find any record of it. So, EGI submitted a
request to the Brazilian Superior Court of Justice
(“STJ”) to serve Mr. Coderch via a special procedure
for constructive service under Brazilian law called
citação por hora certa (“hora certa”), which translates
to “service of process at a designated time.”
Under Articles 252 and 253 of the Brazilian Code
of Civil Procedure, a Brazilian court may authorize
hora certa service on an individual if service was
attempted twice unsuccessfully and there is reason to
suspect that the individual is concealing himself from
service. Aff. of Pedro Oliveira da Costa, ¶¶ 11–12,
nn.1– 2, ECF No. 16-7; Decl. of Keith S. Rosenn, ¶¶
19–20, ECF No. 21-3; Decl. of José Roberto dos Santos
Bedaque, ¶¶ 10–12, ECF No. 30-2.8 To accomplish
hora certa service, a court official must attempt to
serve the summons twice at the individual’s address.
da Costa Aff. ¶ 12. If he is still unsuccessful, he must
notify a family member, neighbor, or doorman at that
address that he will return on the next day at a
designated time to attempt service a third time. Id. If
the target of service still cannot be located at the
address after this third attempt at service, the official
may leave a copy of the summons and complaint with
a family member, neighbor, or doorman, and the
target is deemed constructively served under
Brazilian law. Id. ¶¶ 12–15.
Here, the STJ specifically authorized hora certa
service on Mr. Coderch. The bailiff returned to Mr.
“In determining foreign law, the court may consider any
relevant material or source, including testimony, whether or not
submitted by a party or admissible under the Federal Rules of
Evidence.” Fed. R. Civ. P. 44.1.
8

10a
Coderch’s Brazilian apartment on April 6 and 11,
2017, to attempt service. After both attempts were
unsuccessful, he notified the doorman that he would
attempt service one final time on April 12, 2017, at
2:00 p.m. The bailiff returned on April 12 but again
could not find Mr. Coderch. The bailiff thus left the
summons and copies of the court documents with the
doorman. On May 11, 2017, the STJ confirmed that
Mr. Coderch had been properly served via the hora
certa process, and on June 8, 2017, the Brazilian
Ministry of Justice and Public Security returned the
Letter Rogatory to the United States, indicating that
Mr. Coderch had been validly served under Brazilian
law.
After the Letter Rogatory was returned and filed
with the District Court, the District Court reopened
the case. Mr. Coderch moved to quash the foreign
service of process under Rule 12(b)(4) of the Federal
Rules of Civil Procedure, claiming that service was
invalid under Brazilian law. He also moved to dismiss
the petition to confirm the Arbitration Award,
arguing, inter alia, that the Award cannot be
recognized because it is not a money judgment and
that recognition of the Award as requested by EGI
would substantially modify the Award. The District
Court denied both motions. It first held that it could
not review the Brazilian court’s determination that
service of process had been carried out in accordance
with Brazilian law; but even if it could, it found that
Mr. Coderch had not presented persuasive evidence
that service was insufficient. The Court then held
that the Award should be confirmed, rejecting each of
Mr. Coderch’s arguments. Mr. Coderch now appeals.

11a

II.
We turn first to the sufficiency of service of process
in Brazil. When reviewing an order resolving a
defendant’s challenge to service of process, we review
the district court’s legal conclusions, including the
district court’s interpretation of foreign law in
determining the sufficiency of service, de novo and its
findings of fact for clear error. Prewitt Enters., Inc. v.
Org. of Petroleum Exp. Countries, 353 F.3d 916, 920–
21 (11th Cir. 2003).
In this case, EGI chose to serve Mr. Coderch
pursuant to the Convention on Letters Rogatory and
its Additional Protocol. Under the Convention on
Letters Rogatory, “[l]etters rogatory shall be executed
in accordance with the laws and procedural rules of
the State of destination,” here, Brazil. Convention on
Letters Rogatory, art. 10. The Convention on Letters
Rogatory further provides that “the State of
destination shall have jurisdiction to determine any
issue arising as a result of the execution of the
measure requested in the letter rogatory.” Convention
on Letters Rogatory, art. 11. Here, a Brazilian court
determined both that service via the hora certa
procedure was warranted and that hora certa service
had been carried out in accordance with Brazilian law.
The District Court determined that it would be
improper for the Court to review a decision by the
Brazilian court that service of process was carried out
in accordance with Brazilian law. We also see no
reason to disturb the Brazilian court’s rulings.
Principles of comity9 counsel against reviewing a
International comity refers to “[t]he extent to which the law of
one nation, as put in force within its territory, whether by
executive order, by legislative act, or by judicial decree, shall be
allowed to operate within the dominion of another nation.” Hilton
9

12a
foreign court’s determination regarding the
interpretation and application of the foreign country’s
own laws—especially here, where the operative treaty
confers jurisdiction over the issue to the foreign court.
In evaluating whether comity is appropriate, we
consider “(1) whether the judgment was rendered via
fraud; (2) whether the judgment was rendered by a
competent court utilizing proceedings consistent with
civilized jurisprudence; and (3) whether the foreign
judgment is prejudicial, in the sense of violating
American public policy because it is repugnant to
fundamental principles of what is decent and just.”
Turner Entm’t Co. v. Degeto Film GmbH, 25 F.3d
1512, 1519 (11th Cir. 1994) (internal citations
omitted). We also consider “whether ‘the central issue
in dispute is a matter of foreign law and whether there
is a prospect of conflicting judgments.’” Daewoo Motor
Am., Inc. v. Gen. Motors Corp., 459 F.3d 1249, 1258
v. Guyot, 159 U.S. 113, 163, 16 S. Ct. 139, 143 (1895); GDG
Acquisitions, LLC v. Gov’t of Belize, 749 F.3d 1024, 1030 (11th
Cir. 2014). As the Supreme Court has explained:
When . . . [a] foreign judgment appears to have been
rendered by a competent court, having jurisdiction of the
cause and of the parties, and upon due allegations and
proofs, and opportunity to defend against them, and its
proceedings are according to the course of a civilized
jurisprudence, and are stated in a clear and formal
record, the judgment is prima facie evidence, at least, of
the truth of the matter adjudged; and it should be held
conclusive upon the merits tried in the foreign court,
unless some special ground is shown for impeaching the
judgment, as by showing that it was affected by fraud or
prejudice, or that by the principles of international law,
and by the comity of our own country, it should not be
given full credit and effect.
Hilton, 159 U.S. at 205–06, 16 S. Ct. at 159–60.

13a
(11th Cir. 2006) (quoting Ungaro-Benages v. Dresdner
Bank AG, 379 F.3d 1227, 1238 (11th Cir. 2004)).
Mr. Coderch argues that the Brazilian STJ’s
decision to authorize hora certa service is not entitled
to comity because (1) it was the product of an ex parte
proceeding in which he had no opportunity to defend
himself, and (2) it was procured by fraud. As to his
first argument, Mr. Coderch claims that he lacked any
fair opportunity to defend himself in the Brazilian
court because, if he had appeared to challenge service
or the hora certa procedure, he would have been
automatically deemed served under Brazilian law.
Thus, he could not have challenged service in the
Brazilian courts, like the District Court suggested,
because to challenge service in Brazil would have been
to waive service.
It is true that if Mr. Coderch had attempted to
challenge service in Brazil, he would be deemed
served under Brazilian law upon appearing in court.
But that is why, in cases dealing with constructive
service such as the hora certa service at issue here,
Brazilian law provides for the appointment of a lawyer
from the Public Defender’s Office to represent the
interests of the individual who has not yet appeared
before the Brazilian court. da Costa Aff. ¶ 11, n.4, ECF
No. 30-1. In this case, a Special Guardian from the
Public Defender’s Office represented Mr.
Coderch in defending against service in the
Brazilian tribunal. That Public Defender apparently
made multiple challenges to the validity of service in
the Brazilian court on Mr. Coderch’s behalf, a fact Mr.
Coderch does not dispute. As such, we cannot say that
the Brazilian tribunal failed to offer Mr. Coderch a fair
opportunity to defend against service in Brazil.

14a
With respect to his second argument, Mr. Coderch
contends that the evidence submitted to the STJ,
which the STJ relied on in finding that Mr. Coderch
was concealing himself from service and authorizing
hora certa service, was false. Specifically, Mr. Coderch
claims that the declaration presented to the STJ that
stated that his finca in Paraguay did not exist was
false and misled the STJ, and thus that the STJ’s
factual determination that Mr. Coderch was
attempting to evade service was erroneous and, as a
matter of Brazilian law, it should not have authorized
hora certa service. The District Court, however, found
no evidence of fraud, instead concluding that “ample
evidence” substantiated the STJ’s finding that Mr.
Coderch was evading service of process. The District
Court did not clearly err in so finding, and we are not
convinced that EGI’s (and the Paraguayan notary’s)
apparent inability to locate Mr. Coderch’s finca in
Paraguay rises to the level of fraud.
Accordingly, we hold that the District Court did
not err in finding that considerations of international
comity counseled against reviewing the Brazilian
court’s determination that Mr. Coderch had been
properly served in accordance with Brazilian law,
especially since the Convention on Letters Rogatory
commits jurisdiction of this issue to the courts of
Brazil. Therefore, the District Court properly denied
Mr. Coderch’s motion to quash service under Rule 12.
III.
We turn next to Mr. Coderch’s argument that the
District Court erred in confirming the Arbitration
Award. “On an appeal of a district court’s decision to
confirm or vacate an arbitration award, we review the
district court’s resolution of questions of law de novo
and its findings of fact for clear error.” Rintin Corp.,

15a
S.A. v. Domar, Ltd., 476 F.3d 1254, 1258 (11th Cir.
2007).
Both parties agree that this Arbitration Award is
governed by the Inter-American Convention on
International Commercial Arbitration (the “Panama
Convention”), Jan. 30, 1975, O.A.S.T.S. No. 42, 1438
U.N.T.S. 245. Chapter 3 of the FAA, 9 U.S.C. §§ 301–
307, implements the Panama Convention. Relevant
here, § 302 incorporates by reference § 207 of the FAA,
which provides that a federal court must confirm an
arbitration award “unless it finds one of the grounds
for refusal or deferral of recognition or enforcement of
the award specified in the said Convention.”10 9 U.S.C.
§ 207. Article 5 of the Panama Convention lists seven
grounds for refusing to recognize an arbitration
award: (1) incapacity or invalidity of the agreement,
(2) lack of notice, (3) that the decision concerns a nonarbitrable dispute, (4) violation of the arbitration
agreement or relevant law in carrying out the
arbitration, (5) “[t]hat the decision is not yet binding
on the parties or has been annulled or suspended,” (6)
“[t]hat the subject of the dispute cannot be settled by
arbitration under the law of [the State of
recognition],” and (7) “[t]hat the recognition or
execution of the decision would be contrary to the
public policy (ordre public) of [the State of
recognition].”
Panama Convention, art. 5. Mr.
Coderch does not claim to be invoking one of these
The “said Convention” referred to in § 207 is the United
Nations Convention on the Recognition and Enforcement of
Foreign Arbitral Awards (the “New York Convention”), June 10,
1958, 21 U.S.T. 2517, 330 U.N.T.S. 3, the predecessor to the
Panama Convention. There is no substantive difference between
the two as relevant here. Moreover, in incorporating § 207 into
Chapter 3 of the FAA, § 302 specifies that “the Convention” shall
mean the Panama Convention for purposes of Chapter 3.
10

16a
exceptions as a basis for refusing to confirm the
Arbitration Award.
Instead, Mr. Coderch argues that the Award was
not confirmable for two reasons. First, he argues that
the Award left undecided several issues relating to the
purchase price that render the Award non-final. And,
he says, although the Panama Convention is silent on
whether non-final awards may be confirmed, as a
general matter we lack jurisdiction to confirm a nonfinal arbitration award. See Savers Prop. & Cas. Ins.
Co. v. Nat’l Union Fire Ins. Co. of Pittsburg, 748 F.3d
708, 717–19 (6th Cir. 2014) (holding that the court
lacked jurisdiction to review an interim award that
resolved only issues of liability and reserved for a later
date the question of computing damages). He asks us
to send the dispute back to the arbitrator to decide
these issues in the first instance. Second, he argues
that confirming the Award as requested by EGI
improperly modifies the Award from an order of
specific performance to an award for money damages.
We review each argument in turn.
A.
Coderch first argues that the Award cannot be
confirmed because it did not fully resolve the parties’
disputes regarding the purchase price. As explained
above, the Arbitration Award provides a detailed
formula, tracking precisely the language of Section 10
of the Shareholders’ Agreement, for calculating the
price of the shares that EGI was entitled to sell
pursuant to its put right, based on the initial
Preferred Purchase Price per share identified in the
Award. The only thing the Arbitration Award does not
do is perform the calculations. Despite this, Mr.
Coderch claims that the Award is non-final because
the formula fails to specify the currency in which the

17a
purchase is to be made—it provides as a starting point
for the calculation a sum in UF, which is not a
currency but an inflation index, and fails to specify a
conversion date for purposes of converting the UF
figures into an appropriate currency. He argues that
EGI improperly calculated the amount owed to it
under the Award by converting the UF amount listed
in the Award to U.S. dollars, as opposed to Chilean
pesos as the Shareholders’ Agreement contemplates.
He claims that we must remand this dispute so that
the arbitrator can decide the appropriate currency.
As an initial matter, we can find nothing in the
Shareholders’ Agreement that requires the shares
purchased pursuant to the put right to be paid for only
in Chilean pesos, as Mr. Coderch claims. The
Arbitration Award certainly does not require as much,
given that it directs the purchase price to be
calculated in terms of UF. But regardless, EGI did
initially convert the UF figure listed in the Award to
Chilean pesos, before eventually converting it into
U.S. dollars for purposes of confirmation in the
District Court.
Moreover, the currency in which the Award is
ultimately paid does not matter so much—as far as
value goes—as long as the appropriate conversion
date is used. That brings us to the parties’ next
disagreement. EGI converted the Award amount from
UF to pesos to U.S. dollars using the exchange rate on
the date that payment was due under the Award:
January 23, 2012.11 EGI argues this was appropriate
The arbitrator rendered a decision on January 13, 2012,
requiring Mr. Coderch to purchase all of EGI’s shares within ten
business days from the date of the Award. That means that
performance under the Award was due on January 27, 2012. In
arriving at the January 23 date, EGI apparently counted ten
total days, including Saturdays and Sundays, from the date of
11

18a
because, according to the “breach day” rule, foreign
arbitration awards should be converted to U.S. dollars
on the date of the award. Mr. Coderch argues that
this gives EGI an inflated award, and that the
appropriate conversion date is the date of the
“Preferred Closing” in the Shareholders’ Agreement.
He also argues that because the Award itself does not
provide the conversion date, the Award is non-final,
and we should send the matter back to the arbitrator
to decide in the first instance.
While the Arbitration Award does not specify a
conversion date, that omission alone does not render
the Award non-final if the conversion date is
established as a matter of law. The Supreme Court
has laid out two options for determining the proper
date on which to convert foreign currency into U.S.
dollars. The first, established in Hicks v. Guinness,
269 U.S. 71, 46 S. Ct. 46 (1925), and known as the
“breach day” rule, applies when the plaintiff’s cause of
action arises under U.S. law. See Jamaica Nutrition
Holdings, Ltd. v. United Shipping Co., 643 F.2d 376,
380 (5th Cir. April 24, 1981).12 In that case, the
applicable exchange rate is the rate that was in effect
on the date that the plaintiff’s cause of action arose.
Id. In Hicks, a breach-of-contract case, that meant
that German marks should be converted into U.S.
dollars on the date the contract was breached. See 269
U.S. at 80, 46 S. Ct. at 47. The Supreme Court
reasoned that at the time of breach the plaintiff had a
the Award. Nonetheless, this mistake does not affect our
conclusion because, as explained below, we find that the proper
conversion date is in fact January 13, 2012.
In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir.
1981) (en banc), we adopted as binding all Fifth Circuit precedent
prior to October 1, 1981.
12

19a
claim under U.S. law for damages in U.S. dollars.
Jamaica Nutrition Holdings, 643 F.2d at 380 (quoting
Hicks, 269 U.S. at 80, 46 S. Ct. at 47).
The second method, based on the Supreme Court’s
decision in Die Deutsche Bank Filiale Nurnberg v.
Humphrey, 272 U.S. 517, 47 S. Ct. 166 (1926), applies
when the suit is based entirely on an obligation
existing under a foreign country’s laws and the debt is
payable in that country’s currency. Jamaica Nutrition
Holdings, 643 F.2d at 380. In that case, the parties
assume the risk of currency fluctuations and the
applicable exchange rate is the rate in effect on the
date of the final decree or judgment. Humphrey, 272
U.S. at 518–19, 47 S. Ct. at 166–67; Jamaica
Nutrition Holdings, 643 F.2d at 380. This is known as
the “judgment day” rule.
To determine which rule is applicable, we look to
the jurisdiction in which the plaintiff’s cause of action
arose. See In re Good Hope Chem. Corp., 747 F.2d 806,
811 (1st Cir. 1984). This is a suit under the FAA to
confirm an international arbitration award. Thus, the
FAA, which implements the Panama Convention, is
the source of EGI’s cause of action. While the
underlying dispute between EGI and Mr. Coderch in
arbitration regarding the breach of the Shareholders’
Agreement was governed by Chilean law, EGI’s cause
of action here derives entirely from U.S. law, namely
the right under the FAA to have an international
arbitration award confirmed by a U.S. court.
Therefore, because EGI’s cause of action arises under
U.S. law, the District Court properly understood that
the purchase price owed to EGI under the Award
should be converted to U.S. dollars according to the
breach day rule.
However, the District Court clearly erred in
accepting the date suggested by EGI—January 23,

20a
2012—as the appropriate date for conversion under
the breach day rule. The breach day rule requires
conversion using the exchange rate on the date that
the cause of action arose. A cause of action arises
under § 207 of the FAA as soon as an arbitration
award “is made.” See 9 U.S.C. § 207 (“Within three
years after an arbitral award falling under the
Convention is made, any party to the arbitration may
apply to any court having jurisdiction under this
chapter for an order confirming the award as against
any other party to the arbitration.” (emphasis added));
see
also
Seetransport
Wiking
Trader
Schiffarhtsgesellschaft
MBH
&
Co.,
Kommanditgesellschaft v. Navimpex Centrala
Navala, 989 F.2d 572, 581 (2d Cir. 1993), as amended
(May 25, 1993) (interpreting “made” in § 207 as
referring to when the award is actually decided by the
arbitrator, and thus finding that the three-year
statute of limitations begins to run once the
arbitration award is issued). In other words, an
arbitration award becomes confirmable under the
Panama Convention and the FAA as soon as it is
issued. EGI thus had a cause of action under the FAA
as soon as the Arbitration Award issued in Chile on
January 13, 2012. As such, the proper conversion date
under the breach day rule is January 13, 2012. The
District Court therefore clearly erred in accepting
EGI’s calculations, which converted UF to pesos to
U.S. dollars on January 23, 2012.
B.
Lastly, Mr. Coderch contends that the District
Court should not have confirmed the Arbitration
Award as requested by EGI because the Award was
really an order of specific performance, forcing the
controlling shareholders’ compliance with Section 10
of the Shareholders’ Agreement, and not an award of

21a
a sum of money. He argues that enforcing the
Arbitration Award as a money judgment gives EGI a
windfall, allowing EGI to collect an inflated purchase
price without any obligation to turn over the shares.13
Mr. Coderch is correct that the Arbitration Award
is properly understood as ordering specific
performance of the parties’ obligations under Section
10— namely, the purchase by Mr. Coderch and the
sale by EGI of EGI’s shares of preferred stock. As the
arbitrator noted throughout the Award, EGI had
sought forcible compliance with the terms of the
Shareholders’ Agreement. And Section 10 of the
Shareholders’ Agreement makes clear that the parties
contemplated the simultaneous transfer of stock for
cash by providing that “[a]t the time of each one of such
purchases [of preferred stock made pursuant to the
put right], the respective number of relevant shares of
Preferred Stock shall be transferred to the Put Buyer
against full payment in cash for such shares”
(emphases added). That simultaneous exchange of
shares for money is what the arbitrator ordered. To
the extent that the District Court enforced the
Arbitration Award as a money judgment, the District
Court erred.
That said, Mr. Coderch offers no reason why an
arbitration award ordering specific performance, as
opposed to money damages, is not confirmable under
the Panama Convention. The Panama Convention
Despite having exercised its put right, EGI continues to hold
onto the shares. It represents here, as it did in the District Court,
that it is willing and prepared to transfer the shares once Mr.
Coderch makes the requisite payment. EGI has chosen not to
transfer the shares yet because EGI fears that it would
substantially weaken its economic position if it had neither the
shares nor the money to which it is entitled.
13

22a
makes no exception for the recognition of arbitration
awards ordering specific performance. See generally
Panama Convention, art. 5. And, as explained above,
a district court can refuse to confirm an arbitration
award only if one of the enumerated exceptions in the
Panama Convention applies. Accordingly, we find that
the Award was confirmable under the Panama
Convention and the FAA.
The fact that the Award is an order of specific
performance, as opposed to a money judgment, might
be irrelevant for purposes of determining whether the
Award is confirmable, but it is relevant to crafting the
appropriate remedy.
Because the District Court viewed the Award as a
money judgment as opposed to an order of specific
performance, it enforced only half of the Award: it
ordered Mr. Coderch to pay the put price for EGI’s
shares but neglected to enforce the corresponding
requirement that EGI tender those shares upon
payment. Instead of enforcing the Arbitration Award
as requested by EGI, the District Court’s order should
have required Mr. Coderch to pay the purchase price
set out in the Shareholders’ Agreement and the Award
and in exchange required EGI to tender its shares.14

14

To facilitate the transfer, the District Court could have then
required both parties to tender their performance to the Clerk of
Court, as is customary in cases of forced sales, rather than
directly to each other. That way, once the Clerk receives the
shares from EGI and the payment from Mr. Coderch, he or she
could effectuate the simultaneous transfer of shares for money
that the Shareholders’ Agreement and the Arbitration Award
contemplate. Such an approach would also ensure that neither
party ends up with a windfall if the other reneges (as each party
here worries the other will do) and would put to rest this never-

23a
Because the District Court did not do this, it erred.
IV.
In conclusion, we hold that while the District
Court properly found that the Arbitration Award
should be confirmed under the Panama Convention,
the Court committed two errors in enforcing that
award. First, it clearly erred by accepting EGI’s
calculation of the purchase price due under the award,
which used the wrong conversion date. Second, it
failed to fully enforce the Award by neglecting to order
EGI to tender its shares upon payment, as EGI is
required to do under Section 10 of the Shareholders’
Agreement. We therefore VACATE the District
Court’s order and REMAND with the following
instructions: (1) to recalculate the purchase price of
the shares using the January 13, 2012, conversion
date; and (2) to enter an order requiring both Mr.
Coderch and EGI to perform their obligations under
Section 10 of the Shareholders’ Agreement by paying
the purchase price for the relevant shares, after
proper calculation and conversion, and tendering
those shares, respectively.
SO ORDERED.
ending game of chicken concerning who will perform first and
risk ending up with nothing at all.
Of course, this still begs the question of how to enforce an
order of specific performance if one of the parties still refuses to
perform. Fortunately, the District Court has plenty of tools in its
chest to deal with a party’s failure to comply with the Court’s own
orders. For example, the District Court might set a specific date
on which performance under its order is due, and provide that for
every day after the deadline that the party refuses to comply, the
District Court will impose a hefty monetary fine on the offending
party. Those accumulating fines would then be enforceable as
money judgments against the offending party

24a
Appendix B
United States District Court
for the
Southern District of Florida
EGI-VSR, LLC,
Petitioner,
v.
Juan Carlos Celestino
Coderch Mitjans,
Respondent.

)
)
)
)
)
)
)
)

Civil Action No.
15-20098-Civ-Scola

Omnibus Order on Motion to Quash, Motion to
Strike, and Motion to Confirm Arbitration
Award
This matter is before the Court upon the
Respondent’s motion to quash purported service of
process and to dismiss petition to confirm
international arbitration award (Mot., ECF No. 21.) In
conjunction with the motion to quash, the Respondent
also filed a motion to strike declarations (ECF No. 33.)
The Court held a hearing on May 31, 2018. Following
review of the motions and the arguments of counsel,
the Court denies the motion to quash (ECF No. 21),
denies as moot the motion to strike (ECF No. 33),
and grants the motion to confirm the arbitration
award (ECF No. 1).
1. Background
This case arises as a result of an investment in
wine gone sour. The Petitioner EGI-VSR is a
Delaware company that purchased over four million

25a
preferred shares of stock in October, 2005 in Viña San
Rafael S.A. (“VSR”), a private corporation that
produces and distributes wine. The Respondent is a
Chilean citizen and a controlling shareholder of VSR,
along with additional parties not named in the instant
action. At the time of the Petitioner’s initial purchase,
the parties entered into a shareholders’ agreement
(the “Agreement”) (ECF No. 1-3), which contains an
arbitration clause and a provision stating that a
breach by controlling shareholders would trigger a put
right for the Petitioner, requiring the controlling
shareholders to purchase all of the Petitioner’s shares
at a certain price within a certain amount of time. (See
id. ¶ 10.) The Petitioner ultimately purchased
additional shares, and made a total investment of
approximately $17 million in VSR over four years.
In October, 2009, based upon numerous breaches
of the Agreement by the controlling shareholders,
including the Respondent, the Petitioner informed the
controlling shareholders that it would exercise its put
right, and invoked the arbitration clause in the
Agreement. The parties participated in an arbitration
in Chile, in which the arbitrator determined that
the controlling shareholders violated several sections
of the Agreement and ordered them to buy the
Petitioner’s shares. (See Final Award, ECF No. 1-4.)
The Respondent unsuccessfully challenged the Final
Award.
The Petitioner filed this action in January, 2015,
seeking to have this Court confirm the Final Award
under the Panama and New York Conventions, and
enter a judgment order setting forth the total price to
be paid to the Petitioner for the shares the Respondent
was to purchase according to the Final Award. The
Petitioner then filed a notice, informing the Court that
it had filed a request for service abroad of extrajudicial

26a
documents pursuant to the Inter-American
Convention on Letters Rogatory, Jan. 30, 1975,
O.A.S.T.S. No. 43, 1438 U.N.T.S. 288. (ECF No. 11.)
Shortly after, the Petitioner requested that the Court
grant an extension of time in which to effectuate
foreign service anticipating that service would require
at least a year, (ECF No. 12), which request the Court
granted, and stayed this case requiring the Petitioner
to inform the Court when service was effectuated.
(ECF No. 13.) In October, 2017, the Court reopened
this case upon the Petitioner’s notice that service had
been effectuated. (ECF No. 17.)
In the instant motion, the Respondent challenges
service of process, and requests that the Court dismiss
the petition for improper venue and on substantive
grounds.
2. Legal Standard and Applicable Law
The parties do not dispute that the arbitration at
issue here is governed by the Inter-American
Convention on International Commercial Arbitration
(opened for signature Jan. 30, 1975, O.A.S.T.S. No. 42,
1438 U.N.T.S. 245) (referred to interchangeably as
both the “Panama Convention” and the “InterAmerican Convention”). See 9 U.S.C. §§ 301-307
(implementing the Convention).15 “Because the Final
15

With respect to enforcement matters and interpretation, the
New York Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, June 10, 1958, 21 U.S.T. 2517, T.I.A.S.
No. 6997, 330 U.N.T.S. 38 (effective for the United States on Dec.
29, 1970), reprinted in 9 U.S.C. §§ 201-208, and the Panama
Convention are substantially identical. Thus the case law
interpreting provisions of the New York Convention are largely
applicable to the Panama Convention and vice versa. See
Corporacion Mexicana de Mantenimiento Integral, S. de R.L. de
C.V. v. Pemex-Exploracion y Produccion, 962 F. Supp. 2d 642, 653
(S.D.N.Y. 2013), aff'd, 832 F.3d 92 (2d Cir. 2016) (“The Panama

27a
Arbitration Award was made in a nation that is a
signatory of the Inter-American Convention, the Final
Arbitration Award is entitled to be recognized and
enforced, unless an appropriate exception for nonrecognition applies.” Nicor Int’l Corp. v. El Paso Corp.,
292 F. Supp. 2d 1357, 1372 (S.D. Fla. 2003) (Marra,
J.) (citing 9 U.S.C. § 304). “In 9 U.S.C. §301, section
207 of the FAA is incorporated by reference and
applied to Panama Convention awards.” Empresa De
Telecommunicaciones De Bogota S.A. E.S.P. v.
Mercury Telco Grp., Inc., 670 F. Supp. 2d 1357, 1361
(S.D. Fla. 2009) (Marra, J.). Section 207 provides that
confirmation of an arbitral award falling under the
Convention is mandatory “unless [a court] finds one of
the grounds for refusal or deferral of recognition or
enforcement of the award specified in the said
Convention.” 9 U.S.C. § 207. The Convention also
contains a residual clause which provides that
Chapter 1 of the FAA applies to actions brought under
the Convention, so long as it does not conflict with the
Convention or its implementing legislation. 9 U.S.C. §
208.
“A district court’s review of a foreign arbitration
award is quite circumscribed” and “there is a general
pro-enforcement bias manifested in the Convention.”
Four Seasons Hotels & Resorts B.V. v. Consorcio Barr,
S.A., 613 F. Supp. 2d 1362, 1366, 1367 (S.D. Fla. 2009)
Convention and . . . the []New York Convention[] are largely
similar, and so precedents under one are generally applicable
to the other.”) (citing Productos Mercantiles E Industriales, S.A.
v. Faberge USA, Inc., 23 F.3d 41, 45 (2d Cir. 1994) (“The
legislative history of the [Panama] Convention’s implementing
statute . . . clearly demonstrates that Congress intended the
[Panama] Convention to reach the same results as those reached
under the New York Convention” such that “courts in the United
States would achieve a general uniformity of results under the
two conventions.”).

28a
(Moore, J.) (quotations and alterations omitted). It is
really “only when an arbitrator strays from
interpretation and application of the agreement and
effectively dispenses his own brand of industrial
justice that his decision may be unenforceable.” S.
Mills, Inc. v. Nunes, 586 F. App’x 702, 704 (11th Cir.
2014) (quoting Stolt- Nielsen S.A. v. AnimalFeeds Int’l
Corp., 559 U.S. 662, 671, (2010)) (quotations marks
omitted).
3. Analysis
A. Service of process was valid
The Respondent first challenges service of
process, arguing that the purported service was
invalid under Brazilian law. The parties agree that in
challenging service of process, a burden-shifting
approach applies. The Respondent bears the initial
burden of challenging service and detailing how
service fell short of the procedural requirements.
Quantum Capital, LLC v. Banco De Los Trabajadores,
No. 1:14-cv-213193, 2014 WL 12519757, at *3 (S.D.
Fla. Nov. 21, 2014) (Ungaro, J.) (internal citation
omitted). The burden then shifts to the Petitioner to
establish a prima facie case of proper service. Id.
Assuming the Petitioner can establish proper service,
the burden then shifts back to the Respondent, who
must show “strong and convincing evidence” of
insufficient service of process. Id.
The Respondent contends that service upon him
in Brazil was invalid because he no longer lived in
Brazil. The parties expend many pages of argument in
their papers, and attach a host of exhibits, with
respect to the validity of service of process.16 However,
In addition, the Respondent seeks to have several of the
exhibits stricken. (See Mot. to Strike, ECF No. 33.)
16

29a
as previously stated, the Petitioner in this case
availed itself of the Inter-American Convention on
Letters Rogatory, which states in pertinent part that
“[l]etters rogatory shall be executed in accordance
with the laws and procedural rules of the State of
destination.” O.A.S.T.S. No. 43, 1438 U.N.T.S. 288,
art. 10. The Convention also states that “[t]he
authority of the State of destination shall have
jurisdiction to determine any issue arising as a result
of the execution of the measure requested in the letter
rogatory.” Id., art. 11. In its response and supporting
documents (ECF No. 30), the Petitioner represents
that the Superior Judicial Tribunal in Brazil
determined that the Respondent was properly served,
a fact which the Respondent does not dispute. (See
ECF No. 30-1 at 33-40.) The Respondent cites no legal
authority indicating that it is proper for this Court to
review a determination by the Brazilian court that
service of process was carried out in accordance with
Brazilian law in this case. Rather, the Respondent
should have challenged service of process in Brazil. As
a result, the Respondent’s attempt to challenge
service of process before this Court is improper.
Nevertheless, even if the Respondent’s challenge
were proper, he has not presented strong and
convincing evidence that the process undertaken in
Brazil was improper or insufficient. Indeed, the
materials submitted by the parties reflect that the
Respondent took action to terminate his Brazilian
residency after the initial attempts to serve him at his
apartment in Rio de Janeiro failed. Thereafter, the
Brazilian court determined that the Respondent was
evading service of process, permitted service of
process by hora certa, and certified that service had
been carried out. (ECF No. 30-11 at 38.) There was
ample evidence presented to the Brazilian court to

30a
substantiate its finding that the Respondent was
evading service. Therefore, the Respondent has failed
to make the necessary showing.
B. The Final Award should be
confirmed
Much like his challenge to service of process, the
Respondent’s challenge to the Petitioner’s request for
confirmation of the underlying arbitration award is
misplaced.
First, the Respondent argues that the motion to
confirm the arbitration award should be dismissed
under Rule 12(b)(3) of the Federal Rules of Civil
Procedure for improper venue. In proceedings to
confirm an arbitration award under the Federal
Arbitration Act, venue lies in “any such court in which
save for the arbitration agreement an action or
proceeding with respect to the controversy between
the parties could be brought, or in such court for
the district and division which embraces the place
designated in the agreement as the place of
arbitration if such place is within the United States.”
9 U.S.C. § 204. The Respondent argues that venue is
improper because the underlying action could not
have been brought in this district under the general
venue statute, and the arbitration took place in Chile.
The general venue statute states that “a
defendant not resident in the United States may be
sued in any judicial district.” 28 U.S.C. § 1391(c)(3).
The Respondent is not a resident of the United States.
Nevertheless, the Respondent also appears to be
mounting a challenge to personal jurisdiction and
arguing forum non conveniens, in that he maintains
that this action could not have been brought in this
district because the underlying controversy has no
connection to this district. However, the issue of venue

31a
is distinct from the issue of personal jurisdiction and
the Respondent once again fails to support his
additional arguments with citations to authority.
Generally, a “litigant who fails to press a point by
supporting it with pertinent authority, or by showing
why it is sound despite a lack of supporting authority
or in the face of contrary authority, forfeits the point.
The court will not do his research for him.” Phillips v.
Hillcrest Medical Ctr., 244 F.3d 790, 800 n.10 (10th
Cir. 2001) (internal quotation omitted); see also
McPherson v. Kelsey, 125 F.3d 989, 995-96 (6th Cir.
1997) (“Issues adverted to in a perfunctory manner,
unaccompanied by some effort at developed
argumentation, are deemed waived. It is not sufficient
for a party to mention a possible argument in the most
skeletal way, leaving the court to put flesh on its
bones.”) (internal quotation omitted). Thus, the Court
does not consider these arguments.
Next, the Respondent argues that the Petitioner’s
motion to confirm the arbitration award should be
dismissed because it is a non-monetary award and
therefore not recognized under Florida’s Uniform Outof-Country Foreign Money Judgment Recognition
Act, Fla. Stat. §§ 55.601-55.607 (the “Uniform Act”),
and recognition of it would violate public policy. In
addition, the Respondent maintains that the Court
cannot confirm the award as requested because it
would substantially modify the Final Award. In
response, the Petitioner contends that the Uniform
Act does not apply, that the Respondent has not
proven that any exceptions under the Panama
Convention to the recognition of the Final Award
apply, and that the Final Award is a calculable
monetary award. The Court considers each argument
in turn.

32a
Although the Uniform Act applies to the
recognition of foreign judgments, the Respondent fails
to point to any authority indicating that the Final
Award is a judgment and that the Uniform Act
applies in this case. The Respondent points to Article
4 of the Panama Convention,17 which states in
pertinent part, that “[a]n arbitral decision or award
that is not appealable under the applicable law or
procedural rules shall have the force of a final
judicial judgment.” O.A.S.T.S. No. 42, 1438 U.N.T.S.
245, art. 4. However, the Respondent fails to point to
any authority indicating that giving an arbitral award
the force of a final judicial judgment pushes such
awards into the purview of the Uniform Act. The
Uniform Act defines an “out-of-country foreign
judgment” as “any judgment of a foreign state
granting or denying recovery of a sum of money .
. . .” Fla. Stat. § 55.602(2). The Final Award in this
case was rendered by an arbitrator, and not a foreign
state; thus, the Court is not persuaded that the
Uniform Act applies.
In addition, the case from this district that the
Respondent relies upon in support of his argument
indicates that the Uniform Act does not apply to an
international arbitration award. Nicor Int’l Corp., 292
F. Supp. 2d at 1372. In Nicor, the court confirmed an
arbitration award after determining that the Panama
Convention properly applied to the award involved,
and evaluating whether any of the grounds for nonrecognition set forth in the New York Convention, and
incorporated by reference into the Panama
Convention, applied. Id. at 1375.

As previously stated, the parties in the instant case do not
dispute that the Panama Convention applies.
17

33a
Thus, the Court may only refuse to confirm the
arbitration award if one of the exceptions applies. See
9 U.S.C. § 207. The Panama Convention specifies as
follows:
1. The recognition and execution of the
decision may be refused, at the request of the
party against which it is made, only if such
party is able to prove to the competent
authority of the State in which recognition
and execution are requested:
a. That the parties to the agreement were
subject to some incapacity under the
applicable law or that the agreement is not
valid under the law to which the parties have
submitted it, or, if such law is not specified,
under the law of the State in which the
decision was made; or
b. That the party against which the
arbitral decision has been made was not duly
notified of the appointment of the arbitrator
or of the arbitration procedure to be followed,
or was unable, for any other reason, to present
his defense; or
c. That the decision concerns a dispute
not envisaged in the agreement between the
parties to submit to arbitration; nevertheless,
if the provisions of the decision that refer to
issues submitted to arbitration can be
separated from those not submitted to
arbitration, the former may be recognized and
executed; or
d. That the constitution of the arbitral
tribunal or the arbitration procedure has not
been carried out in accordance with the terms

34a
of the agreement signed by the parties or, in
the absence of such agreement, that the
constitution of the arbitral tribunal or the
arbitration procedure has not been carried out
in accordance with the law of the State where
the arbitration took place; or
e. That the decision is not yet binding on
the parties or has been annulled or suspended
by a competent authority of the State in
which, or according to the law of which, the
decision has been made.
2. The recognition and execution of an
arbitral decision may also be refused if the
competent authority of the State in which the
recognition and execution is requested finds:
a. That the subject of the dispute cannot
be settled by arbitration under the law of that
State; or
b. That the recognition or execution of the
decision would be contrary to the public policy
(“ordre public”) of that State.
O.A.S.T.S. No. 42, 1438 U.N.T.S. 245, art. 4. The
Respondent fails to set forth a sufficient basis upon
which any of the exceptions would apply in this case.18
Indeed, the only specifically asserted exception is that
recognition of the Final Award would offend public
policy; however, the Respondent premises this
argument upon his incorrect assumption that the

18

Notably, the Panama Convention does not except awards in
the nature of specific performance—as the Respondent contends
the Final Award is in this case—which characterization
nevertheless is inaccurate.

35a
Uniform Act applies in this case. As such, the
argument is without merit.
Finally, the Respondent argues that the Final
Award cannot be confirmed as requested in the
petition because the judgment the Petitioner seeks
substantially modifies the Final Award. Part of the
Respondent’s argument appears to turn on his
contention that the Final Award does not in fact
award a damage amount, but the argument again is
premised upon the Respondent’s additional
contention—which the Court has already rejected—
that the Final Award must be a judgment in order to
be enforceable. The Final Award clearly sets forth the
manner in which to calculate the amount owed by the
Respondent based upon a finding by the arbitrator
that he failed to comply with his obligation under the
parties’ Agreement, to repurchase the Petitioner’s
shares pursuant to its put right. (See Final Award,
ECF No. 1-5 at 103-104.)
In response, the Petitioner has provided the
Court with a detailed breakdown of its calculations, in
accordance with the provisions of the Final Award, of
the amount for which it seeks confirmation. (See ECF
No. 30-7 at 6- 14.) Nevertheless, the Respondent takes
issue with the Petitioner’s conversion of the amount
from Unidades de Fomento (“UF”) to United States
dollars because the Agreement requires the amount to
be in Chilean pesos, arguing that utilizing the UF rate
(which adjusts for inflation) on the date that payment
was due under the Final Award (January 23, 2012),
results in an inflated award amount.
The Respondents’ contention fails. First, the
Final Award specifically sets an applicable rate in UF,
not Chilean pesos, as the basis for calculating the
appropriate Preferred Purchase Price. If the
Respondent believed that the Agreement required

36a
something different, it was incumbent upon him to
make that challenge before the arbitrator. Second, a
review of the calculations reveals that the Petitioner
first performed the calculation of the Preferred
Purchase Price per share as set forth in paragraph 4
of the Final Award, then converted the applicable UF
rate to Chilean pesos, and then to United States
dollars on the date that payment became due under
the Final Award. The Respondent points to no
authority, nor has the Court found any, indicating
that the conversion to dollars is improper. Moreover,
to the extent that the Respondent argues that earlier
conversion rates (i.e., from 2005 to 2009) should apply
because of the dates specifically mentioned in the
Final Award, it is clear that these dates relate to the
start dates for calculation of interest based upon the
dates that the Petitioner made each stock purchase.
4. Conclusion
For the reasons stated above, the Respondent has
failed to demonstrate that the Court should not
confirm the Final Award in this case. Accordingly, the
Court denies the Respondent’s motion to quash and
to dismiss (ECF No. 21). The motion to strike (ECF
No. 33) is denied as moot, and the motion to confirm
the arbitration award (ECF No. 1) is granted. The
Petitioner shall submit its proposed judgment to the
Court in Word format for entry. The Clerk of Court is
directed to close this case.
Done and ordered at Miami, Florida on May
31, 2018.

Robert N. Scola, Jr.
United States District Judge

37a
Appendix C
United States District Court
for the
Southern District of Florida
EGI-VSR, LLC,
Petitioner,
v.
Juan Carlos Celestino
Coderch Mitjans,
Respondent.

)
)
)
)
)
)
)
)

Civil Action No.
15-20098-Civ-Scola

Final Judgment
This matter came before the Court upon EGIVSR, LLC’s Petition to Confirm International Arbitral
Award (“Petition”) (ECF No. 1), and the Court being
otherwise fully advised in the premises, with both
parties represented by counsel, for the reasons stated
in the Court’s Omnibus Order on Motion to Quash,
Motion to Strike, and Motion to Confirm Arbitration
Award (ECF No. 41) entered on June 1, 2018, the
Petition is granted. Accordingly, it is ordered as
follows:
1) The arbitration award in favor of EGI-VSR,
LLC and against Juan Carlos Celestino
Coderch Mitjans, dated January 13, 2012
(“Final Award”) is confirmed.
2) Pursuant to the terms of the Final Award, final
judgment is entered in favor of EGI-VSR, LLC
and against Juan Carlos Celestino Coderch
Mitjans, a/k/a Juan Coderch in the United

38a
States dollar amount of $28,700,450.07.
3) EGI-VSR shall be entitled to post-judgment
interest to be calculated in accordance with 28
U.S.C. § 1961, commencing on the date of this
Final Judgment.
4) In the event that EGI-VSR secures other
judgments enforcing the same Final Award,
then any payment in satisfaction in whole or in
part of this Final Judgment will constitute
payment toward any other enforcing judgment
based upon this same award, such that the
Petitioner may not recover more in total on
account of this Final Judgment and any other
enforcing judgments, than the amount of this
Final Judgment and applicable post-judgment
interest.
Done and ordered at Miami, Florida on June 4,
2018.

Robert N. Scola, Jr.
United States District Judge

